No.

 

 

IN THE

Supreme Court of the United States

DUANE ALLEN SIKES,
Petitioner,

ve
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

CERTIFICATE OF SERVICE
J HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b), that on this
9t day of November, 2020, copies of the Petition for Writ of Certiorari and the
Motion for Leave to Proceed Jn Forma Pauperis were sent by United States mail to
the Solicitor General of the United States, Room 5614, Department of Justice, 950

Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001.
All parties required to be served have been served.
Respectfully submitted this 9° day of November, 2020;

James T. Skuthan...
Astin ederal Defende'

   

Supreme Court Bar No. 242621
Federal Defender’s Office

201 South Orange Avenue, Suite 300
Orlando, Florida 32801

Telephone (407) 648-6338

email stephen_langs@fd.org
Counsel of Record for Petitioner

fo EZ
